Record Press Inc., 229 West 36th Street, New York, N.Y. 10018 ·
Tel No.: (212) 619-4949 · Fax No. (212) 608-3141
STATE OF NEW YORK,

)

COUNTY OF NEW YORK

)

85209

AFFIDAVIT OF SERVICE

SS:

Edward Gutowski being duly sworn, deposes and says that deponent is not party to the action,
and is over 18 years of age.
That on the 16th day of November 2020 deponent served 3 copies of the within
BRIEF FOR APPELEES NEW YORK IMMIGRATION COALITIION ET AL.
upon the attorneys at the addresses below, and by the following method:

BY FEDEX NEXT BUSINESS DAY
Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
212-416-8016
Barbara.underwood@ag.ny.gov
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
I, Edward Gutowski, declare under penalty of perjury under the laws of the United States of
America that the foregoing is true and correct, executed on November 16, 2020, pursuant to
Supreme Court Rule 29.5(c). All parties required to be served, have been served.

~ffe

Edward Gutowski

Sworn to before me on
November 16, 2020
NADIA R. OSWALD HAMID
Notary Public, State of New York
No. 010S6101366
Qualified in Kings County
Commission Expires November 10, 2023

Notary Public

Case Name: Trump v New York
Docket/Case No. 20-366

